                              O ffice of th e Ins pe ctor Ge ne ral



K e nne th S. A pfe l

Com m is s ione r of SocialSe curity


Ins pe ctor Ge ne ral



Pe rform ance M e as ure A udit: Tim e l

                                       y Is s uance of SocialSe curity Num be r Cards


Th e attach e d finalre port pre s e nts th e re s ul
                                                    ts of our pe rform ance m e as ure audit on
           y is s uance of SocialSe curity num be r cards (A-02-9 7-9 3003). Th e
th e tim e l
obje ctive of our re vie w w as to as s e s s th e accuracy of th e SocialSe curity
Adm inis tration’   s pe rform ance m e as ure data for th e tim e l
                                                                   y is s uance of originaland
re place m e nt SSN cards .

You m ay w is h to com m e nt on any furth e r action tak e n or conte m pl  ate d on our
re com m e ndations . Ifyou ch oos e to offe r com m e nts , ple as e provide your
                                                                                        e as e
com m e nts w ith in th e ne xt 60 days . Ifyou w is h to dis cus s th e finalre port, pl
cal lm e or h ave your s taff contact Pam e la J. Gardine r, Assistant Ins pe ctor Ge ne ral
for Audit, at (410)9 65-9 700.




                                                    D avid C. W il
                                                                 liam s




                                               1

              E X E C U T I V E S U M M A R Y


OBJECTIVE
The objective of this audit was to assess the accuracy of the
Social Security Administration’s (SSA) performance measure data
for the timely issuance of original and replacement Social
Security number (SSN) cards.

BACKGROUND
SSA’s Customer Service Pledge states that, “If you request a new

or replacement Social Security card from one of our offices, we

will mail it to you within 5 working days of receiving all the

information we need.” Timely issuance of new and replacement SSN

cards is also a Government Performance and Results Act (GPRA)

performance measure in SSA’s Strategic Plan. For both Fiscal

Years (FY) 1997 and 1998, SSA has a goal of mailing out new and

replacement SSN cards within

5 working days in 97 percent of the requests. In FYs 1995 and

1996, 16.6 million and 16.7 million SSN cards were issued,

respectively, with 13.2 million and

12.9 million issued through the Modernized Enumeration System

(MES). The remaining SSN cards were issued through the

Enumeration at Birth process.


SSA maintains two data bases containing information on the

issuance of SSN cards : MES; and the Field Office Social Security

Number Enumeration Report (FOSSNER). MES is the computerized

system field offices (FO) use to take and process an Application

for a Social Security Card (Form SS-5). MES features two modes

of processing an application : the interview (on-line) and batch

modes. The certification date, which appears in both modes of

processing, signifies the start of the application process and is

the date FO personnel processed the SS-5, reviewed the supporting

documentation, and entered the data into MES. FOSSNER is a

monthly report that provides information to FOs and various

central office components on the processing of all Forms SS-5

taken through MES.


We reviewed SSA’s process for issuing original and replacement

SSN cards from the time of application to the printing and

mailing of the cards. For the period

June 2-6, 1997, we obtained a random sample of 500 Forms SS-5 out

of a universe consisting of 257,352 Forms SS-5 that were

processed by FOs nationwide. We compared the certification dates

on the hard copies of the Forms SS-5 to the dates entered into

the MES to ensure that the dates were accurately captured.

Additionally, a 10 percent cluster sample of FOs nationwide were



                                2

contacted to ascertain how they processed Forms SS-5. We also
analyzed the processing time for each step in the issuance of SSN
cards from application to printing and mailing of the cards. The
work was performed at the New York Regional Office with
assistance from SSA Headquarters in Baltimore, Maryland. The
field work was conducted from April to November 1997.

RESULTS OF REVIEW
We found four major areas of concern:

�	 SSA DID NOT MEASURE THE FULL PROCESSING TIME FOR ISSUING SSN
  CARDS

�	 SOME OF THE CERTIFICATION DATES ON THE SSN APPLICATIONS DID
  NOT AGREE WITH THE MES CERTIFICATION DATES
  Projected Errors Number 35,000

  New MES Revision Could Result in More Discrepancies

� SSA’s DATA BASE ALLOWED ZERO DAYS PROCESSING TIME

�	 SSA DID NOT MEET ITS PERFORMANCE MEASURE IN PROCESSING SSN
  CARDS

CONCLUSIONS AND RECOMMENDATIONS
We recommend that SSA take the following corrective actions to
improve the process of measuring the timely issuance of SSN
cards:

•	 SSA should establish a method that captures the processing
   time for both the printing and mailing of SSN cards.

•	 FO personnel should be trained to help ensure that the
   certification date on the Form SS-5 is accurately entered into
   the MES.

•	 SSA should revise its interview and batch mode processes in
   the MES to accurately capture the time of certification.

•	 Application (FO and systems) processing time should be
   computed to reflect how long it actually takes to process an
   SSN request from certification date to assignment date.




AGENCY COMMENTS
SSA agreed with two of our four recommendations.   The Agency

                                3

noted the need for improvement in the   input of certification
dates for SSN applications. SSA also    stated that it will restore
the capability to enter a retroactive   certification date in MES
after implementation of the Year 2000   systems release in
September 1998.

The Agency partially agreed with our recommendation to establish
a method that captures the processing time for both the printing
and mailing of SSN cards. SSA indicated that there was a method
in place that adequately captures the processing time, but that
improvements in the system could be incorporated. SSA disagreed
with our recommendation to capture the time of certification,
stating that it was not necessary to expand its interview and
batch mode processes in order to capture partial day processing
time. The Agency believes that the entire process of SSN card
issuance and delivery to mail operation is performed in less than
one day. The Agency defines the issuance date; i.e, the end of
the process, as the date the printed SSN cards are delivered to
the mail operation and not when the cards are delivered to the
post office.

OIG RESPONSE
SSA does not have an accurate system to measure the time from
certification of an SSN application to the time printed cards are
put in envelopes, postage applied, and the envelopes are
delivered to the post office. SSA’s current system of
measurement understates the elapsed time for parts of the process
and does not measure other parts at all. We believe that the
implementation of the two recommendations the Agency agrees with
will improve the measurement of this important process. However,
we believe that the data will be inaccurate without the
implementation of our other two recommendations. Recording the
time and date at the beginning and the end of the entire process
will provide an accurate recording of the actual time needed to
process SSN cards.




                                4

              T A B L E O F C O N T E N T S


                                                            Page
EXECUTIVE SUMMARY ................................ .......... i
INTRODUCTION ................................ ............... 1
RESULTS OF REVIEW ................................ .......... 5
  SSA DID NOT MEASURE THE FULL PROCESSING TIME FOR

  ISSUING SSN CARDS ................................ ....... 5

  SOME OF THE CERTIFICATION DATES ON THE SSN

  APPLICATIONS DID NOT AGREE WITH THE MES

  CERTIFICATION DATES ................................ ..... 6


  • Projected Errors Number 35,000 ........................ 6

  •	 New MES Revision Could Result in More
     Discrepancies ................................ ......... 6
  SSA’s DATA BASE ALLOWED ZERO DAYS PROCESSING TIME    ...... 7

  SSA DID NOT MEET ITS PERFORMANCE MEASURE IN

  PROCESSING SSN CARDS ................................ .... 7

CONCLUSIONS AND RECOMMENDATIONS ........................... 10

OTHER MATTERS ................................ ............. 12
  INTERVIEW AND BATCH MODE PROCESSING ARE USED

  EQUALLY ................................ ................ 12

APPENDICES
APPENDIX A - SSA Comments

APPENDIX B - Early Alert - Revised Version of MES, Release 3.0,

Will Impair SSA’s

            Ability to Measure the Time Required to Issue SSN
            Cards
APPENDIX C - Response to Early Alert
APPENDIX D - Major Contributors to this Report
APPENDIX E - SSA Organizational Chart
                   I N T R O D U C T I O N


OBJECTIVE
The objective of this audit was to assess the accuracy of SSA’s
performance measure data for the timely issuance of original and
replacement SSN cards.

BACKGROUND
SSA’s Customer Service Pledge states that, “If you request a new
or replacement Social Security card from one of our offices, we
will mail it to you within 5 working days of receiving all the
information we need.” Timely issuance of new and replacement SSN
cards is also a GPRA performance measure in SSA’s Strategic Plan.
 For both FYs 1997 and 1998, SSA has a goal of mailing out new
and replacement SSN cards within 5 working days in 97 percent of
the requests. In FYs 1995 and 1996, 16.6 million and 16.7
million SSN cards were issued, respectively, with 13.2 million
and 12.9 million, respectively, issued through MES. The
remaining SSN cards were issued through the Enumeration at Birth
process.

SSA maintains two data bases containing information on the
issuance of SSN cards : MES handles the application process; and
FOSSNER maintains monthly nationwide statistics on processing
requests for original and replacement SSN cards.
MES

MES is the computerized system FOs use to take and process an
Application for a Social Security Card (Form SS-5). MES features
two modes of processing an application : the interview (on-line)
and batch modes. The interview mode allows FO personnel to
process an application for an SSN card by obtaining information
from the applicant and entering it into MES while the individual
is present in the FO. The batch mode allows FOs to process a
Form SS-5 by completing batch input screens for each Form SS-5
obtained without the applicant visiting the FO. FOs can process
large numbers of mail-in Forms SS-5 at one time by quickly
entering the required data into MES by using this mode. Some FOs
also use the batch mode to process interview Forms SS-5 when
there is a backlog.

The certification date signifies the start of the application
process. It is the date shown on the bottom of Form SS-5 where
FO personnel indicated that they reviewed supporting
documentation and/or conducted the interview. The certification
date on Form SS-5 is the date FO personnel should enter into


                                1

either the interview or batch mode when they begin to process the
Form SS-5. At the time of our review, the certification date in
the batch mode could be entered to reflect a retroactive date.
The interview mode, which is used while an applicant is in the
FO, did not have this capability.

Effective August 25, 1997, a revised version of MES, Release 3.0
was implemented to streamline the SSN application process and
make the batch mode similar to the interview mode, with the
additional capability of propagation of data. Propagation of data
saves time and prevents data input errors by comparing the
information entered into MES against SSA records for accuracy.
However, the revised version of the batch mode eliminated the
data fields for retroactive certification dates that were in the
previous version. The Office of the Inspector General (OIG)
issued an early alert, dated August 28, 1997, indicating that the
absence of this field will impair SSA’s ability to measure the
time required to issue SSN cards (see Appendix B). SSA responded
on December 8, 1997, and agreed with our assessment (see Appendix
C). SSA stated that appropriate systems changes will be made to
correct the batch screen as soon as other priority systems work
is completed.
FOSSNER

FOSSNER is a monthly report that provides information to FOs and
various central office components on the processing of the Form
SS-5 from certification date to assignment and/or verification of
SSN. Information from Form SS-5 is first entered into MES. MES
provides data for FOSSNER to calculate the time it takes to
process each Form SS-5. The FOSSNER report calculates the Form
SS-5 workload and indicates the number of original and
replacement applications processed and completed by the interview
and batch modes during a particular month.
From SSN Application to SSN Card

An individual applies for an original or replacement SSN card
either by visiting a FO and applying in person or by mailing the
Form SS-5 and supporting documentation to a local FO. When an
individual visits an FO, either an interview (on-line) mode input
or batch mode input is made into MES utilizing the documentation
furnished by the applicant. In most instances, the batch mode is
used for mail-in Forms SS-5 (see Figure 1, Step 1 on the next
page).

Once entered into MES, the information is then transmitted to the
National Computer Center (NCC) (see Step 2). SSA then processes
the application, where either an SSN is assigned (where no
previous SSN has been issued) or is verified by the system (where
a replacement card is requested) (see Step 3).

Approximately 60,000 SSN card print requests are processed each
day. The SSN card is printed within 1 to 2 hours of the

                                   2

verification and/or assignment of an SSN by the NCC. The
printing takes between 10-12 hours after receipt of the SSN card
print request to complete (see Step 4). After the card is
printed, it is prepared for mailing. The cards are put in trays
and then inserted in envelopes which are
bar-coded with a postage meter applied. The envelopes,
consisting of all SSN cards processed during the previous
24 hours, are picked up in the middle of the day (about 1 p.m.)
by an outside vendor. All mail is sorted by the vendor with the
next day’s postage date on each envelope. The contractor is
obligated to deliver the envelopes to the post office by midnight
of the following day (see Step 5). The vendor is not permitted
to apply a new postage meter to the envelope with a new date
should the mail not be on time. The post office will not honor
mail with the wrong meter date on it.

                                                                                                                                              Figure 1.
                                                   FROM SSN APPLICATION TO MAILING OF SSN CARD



                                         Step 1.                                                    Step 2.                                      Step 3.
    FO                                                         NCC                                            SSN
    •R e v i e w E v i d e n c e                               •E l e c t r o n i c S c r e e n               •A s s i g n e d ( N e w )
    •P e r s o n a l I n t e r v i e w                          of Data                                       •V e r i f i e d ( R e p l a c e m e n t )
    •M a i l - i n S S - 5 s                                   •A p p l i c a n t I d e n t i f i e d
    •T r a n s m i t D a t a




                                         Step 6.                                                    Step 5.                                      Step 4.

    Mail                                                       Mailing P r o c e s s                          Printing Process
    •M a i l i n g o f S S N C a r d s                         •P r e p a r a t i o n o f E n v e l o p e s   •S S - 5 D a t a R e c e i v e d
                                                                for Mailing                                   •S S N C a r d s P r i n t e d
                                                               •V e n d o r P i c k - u p a n d
                                                                Delivery to Post Office




SCOPE AND METHODOLOGY
We reviewed SSA’s process for issuing original and replacement
SSN cards from the time of application to the mailing of the
cards. For the period June 2-6, 1997, we selected and obtained a
random sample of 500 Forms SS-5 from FOs nationwide. During this
period, the universe consisted of 257,352 Forms SS-5 that were
processed by FOs. For the 500 Forms SS-5, we obtained copies of
496 from FOs nationwide. Four Forms SS-5 were not received
because they were unable to be located. Of the 496 Forms SS-5
received, 14 were excluded from our review for the following
reasons: 9 had no certification date; 4 were suspect, with
additional Immigration and Naturalization Service contact
required; and 1 was illegible. Of the 482 Forms SS-5 reviewed,
we compared the certification dates shown on the hard copies to
the certification date information maintained on an



                                                                                       3

MES data extract for this period. In analyzing our results, we

used the entire

500 Forms SS-5 sample size and classified the 18 Forms SS-5 that

we could not review as being acceptable for projection and

estimation purposes.


We also obtained a 10 percent cluster sample representing 137 FOs

nationwide. We contacted these offices by phone to obtain

information on FO personnel use of the interview and/or batch

modes in processing Forms SS-5 and inputting the information into

the MES. The 137 FOs consisted of 59 Level 1 (formerly large

District) offices, 51 Level 2 (formerly small district and

branch) offices,

20 Level 3 (formerly small branch offices and large resident

stations) offices,

2 Level 4 (formerly small resident stations) offices, and 5

teleservice centers. The FOSSNER data on these FOs was obtained

to determine the volume of Forms SS-5 processed and the monthly

interview and batch mode percentages.


We performed an analysis of the processing time for each step in

the issuance of SSN cards from application to printing and

mailing of the cards. Additionally, we reviewed the monthly

FOSSNER data to determine the processing time between

certification date to assignment/verification date. Since there

were no data bases to capture the processing times for the

printing and mailing processes, SSA personnel involved in each

step of the process were contacted to assist us in estimating the

time.


Based on information obtained in these contacts, we determined

processing times for each stage in the issuance of the SSN cards.

 We also determined whether SSA complied with its performance

measure goal as stipulated in its annual accountability report

and its strategic plan during the time period under our review.


The work was performed at the New York Regional Office with

assistance from SSA Headquarters in Baltimore, Maryland. The

field work was conducted from April to November 1997. Our audit

was performed in accordance with generally accepted government

auditing standards.





                                4

              R E S U L T S O F R E V I E W


In reviewing the data SSA used to measure performance on the
timely issuance of original and replacement SSN cards, we found
that SSA does not collect data for parts of the SSN card process.
 Additionally, we found that the data SSA used is inaccurate. We
found four major areas of concern.

SSA D ID NO T M EASURE TH E FULLPRO CESSING TIM E FO R ISSUING
SSN CARDS
We found that there was no measurement of the entire process to
determine if SSA actually met its performance goal of mailing an
SSN card within 5 business days of receiving all required
information. While SSA had a measurement system for the time of
certification to the assignment or verification of the SSN, SSA
did not measure the time it took to print and mail the SSN card.
 The SSA monthly report (FOSSNER) only captured the time from
certification of the Application for a Social Security Card (Form
SS-5) to the assignment/verification of the SSN. After the SSN
had been assigned/verified, no data base identified the time
required for the printing and mailing of the card. We contacted
SSA personnel, but they were unable to explain why SSA did not
have a method to measure the entire process.

FOSSNER, which is over 10 years old, was revised in April 1990 to
report on the application processing time captured by MES.
However, when GPRA was enacted in 1993, FOSSNER was never revised
to accurately measure the entire process from SSN card
application to the mailing of the card. Therefore, it appears
that SSA used the system in effect at the time without revising
it to capture all of the information necessary to measure the
entire SSN card application process.

Additionally, there is another part of the process not being
measured before the time the Form SS-5 is certified. The Report
of the Management Information Partnership Team issued in June
1996 noted that the SSN card process “. . . hides the number of
days the fully documented application has been in the office.”
The report indicates that “the time to process the request begins
not with the date the application is submitted initially, but
with the date of certification.” In our review, we did not
measure the elapsed time from receipt of mail-in Forms SS-5 to
the time the Forms SS-5 were certified. We could not determine
how long it took to process the mail-in Forms SS-5. A potential
gap in measuring processing time exists between the time SSA
receives the required documentation by mail and the time the data
is entered into MES.



                                5

SO M E O F TH E CERTIFICA TIO N D A TES O N TH E SSN A PPLICA TIO NS
D ID NO T AGREE W ITH TH E M ES CERTIFICA TIO N D A TES
In 68 of 500 Forms SS-5 reviewed (13.6 percent), the
certification dates on the hard copies of the Forms SS-5 were
earlier than the certification dates shown on the MES data
extract.

The discrepancies ranged from 1 to 12 days, as follows:

• 40 were discrepant by 1 day;
• 8 were discrepant by 2 days; and
• 20 were discrepant by 3 to 12 days.
There were 40 errors in the interview mode and 28 errors in the
batch mode. We contacted FO personnel who made these errors to
identify why they occurred. We determined that in 29 of the
errors (43 percent), FO personnel did not realize that the
certification date on the Form SS-5 was the date that should have
been entered into MES. In another 39 errors (57 percent), FO
personnel acknowledged incorrectly entering the date of input.
Reasons for these errors included making mistakes, being
uninformed and unaware that the correct date mattered, and making
entries quickly without considering the entry of accurate
information. In other cases, FO personnel used the interview
mode, where the retroactive certification date couldn’t be
entered, instead of the batch mode.

Proje cte d Errors Num be r 35,000
Projecting our results to the universe of 257,352 Forms SS-5
processed during the period under review, we estimate that there
were 35,000 Forms SS-5 with certification dates different from
the dates entered into MES. 1 The breakdown consists of the
following:

• 20,650 Forms SS-5 discrepant by 1 day;
• 4,200 Forms SS-5 discrepant by 2 days; and
• 10,150 Forms SS-5 discrepant by 3 to 12 days.

Ne w M ES Re vis ion Coul
                        d Re s ul
                                t in M ore D is cre pancie s
With the recent implementation of MES Release 3.0, there is a
greater potential for discrepancies between the certification
dates shown on the hard copies of the Forms SS -5 and the


1
   The estimate of 35,000 errors was calculated by applying the
13.6 percent error rate from the 500 cases that we selected for
review to the universe of 257,352 Forms SS-5 processed during the
period of June 2-6, 1997.

                                             6

certification dates entered into MES via both the interview and
batch modes. On August 28, 1997, OIG issued an early alert to
SSA management indicating our concerns over SSA’s ability to
measure the time required to issue SSN cards because the
certification date in the MES Release 3.0 is shown as the date of
data entry in both modes. Therefore, if an SSN application is
taken 1 day but is not entered until the next day, the
certification date in the MES would automatically be understated
by 1 day. At the exit conference for this report, SSA personnel
could not indicate when the MES revisions would occur. Moreover,
they were unable to explain how the true time of certification
would be accurately recorded in the interim.

SSA ’
    S D A TA BASE ALLO W ED Z ERO D A Y S PRO CESSING TIM E
In our review and analysis of SSA’s monthly FOSSNER report, we
determined that when a Form SS-5 was certified, data was entered
into MES, and the SSN was assigned on the same date, FOSSNER
computed it as zero days processing time.

FOSSNER calculates average days for both FO and MES processing
times to determine how long it takes to process an SSN
application. FO average days is defined as how long it takes the
FO to enter an application into MES. In the interview mode, if
the date the application was certified and entered into MES is
the same day, subtracting one date from the other equals zero
processing days. System (MES) average days is defined as how
long it takes the system to assign or verify an SSN. A
computation is done by subtracting the date the application was
entered into the system from the date the application was
assigned a new SSN or the SSN was verified. Similar to FO
average days, system average days processing time is calculated
as zero days when the application is transmitted and the SSN is
assigned or verified on the same day. We contacted SSA personnel
to clarify the reason for using this formula but they were unable
to explain the reason why these formulas were used to calculate
processing times.

By using this method of computing FO average days and system
average days, the overall average days (FO average days and
system average days) for many Forms SS-5 are calculated as being
zero days. In our sample, 395 Forms SS-5 (79 percent) had
processing times stated as zero days. By using these formulas,
SSA is understating the actual processing time for the Forms SS-5
and, therefore, understating the time it takes to process
requests for SSN cards.

SSA D ID NO T M EET ITS PERFO RM A NCE M EASURE IN PRO CESSING
SSN CARDS
Based on our review of 500 hard copies of Forms SS-5 processed
during the period of June 2-6, 1997, we found that 20 had
certification dates that were discrepant from the dates entered

                                 7

into the MES by 3 or more days (or 4.0 percent of the sample
items reviewed). We analyzed the processing time from
certification date to mailing date and determined that it took
2.9 days to issue an original or replacement SSN card. Forms SS-
5 that are discrepant by 3 or more days when added to an
estimated processing time totaling 2.9 days would then take more
than the 5 days mandated by SSA’s performance measure. An
additional 13 Forms
SS-5 (2.6 percent) did not have discrepant dates but were
processed in more than the mandated 5 days. Therefore, 33 of the
500 (6.6 percent) hard copies of the Forms SS-5 did not meet the
5 day requirement.

As stated previously, SSA did not measure processing time from
certification date to mailing date. Since there was no
measurement of the entire process, we made a determination of the
processing time based on discussions with SSA personnel familiar
with each stage in the process. Our estimates of processing
times were conservative since our determination included SSA’s
use of zero days during the application process.

We determined the application processing time and estimated the
printing and mailing processing times as follows (see Figure 2 on
the next page):

•	 Application Process (totaling 0.7 days): Based on a review of
   a random sample of 500 Forms SS-5 obtained from FOs
   nationwide, for the week of
   June 2-6, 1997, we determined that average FO days totaled 0.6
days and
   average systems (MES) days totaled 0.1 days, for a total
application processing
   time of 0.7 days. (This calculation includes the use of zero
days processing
   time.) The June 1997 monthly FOSSNER, prior to the recent MES
revision,
   indicated average FO days totaling 0.3 days and average
systems (MES) days
   totaling 0.1 days, for a total application processing time of
0.4 days.

•	 Printing Process (totaling 0.5 days) : This includes the
   printing of the SSN card within 1 to 2 hours of the
   verification and/or assignment of an SSN by the NCC. The
   printing takes between 10-12 hours of receipt of SSN requests
   to complete.

•	 Mailing Process (totaling 1.7 days) : The mailroom receives
   boxes containing the SSN cards and logs their receipt. The
   log contains information on date received, expected and actual
   release dates. Prior to January 1, 1998 the log did not
   indicate how long it took to process the cards for mailing
   since actual release dates were not included in the log. The


                                8

log-in sheet procedures have been revised effective January 1,
1998 to include the release dates. Accordingly , review of
the revised log-in sheets disclosed that the logs did not have
the actual release dates to the vendor which would indicate
the mail room processing time. Additionally, in some
instances, the expected release date was more than one day.

After logging the cards in, the cards are put in trays,
inserted into envelopes, bar-coded and a postage meter applied
to the envelopes (estimate 0.3 days).




                             9

  The vendor picks up the envelopes with the SSN cards processed
  within the last 24 hours (0 .5 day estimate). The vendor
  delivers the envelopes to the post office within approximately
  22 hours (estimate 0.9 days).

                                                                                                     Figure 2.
                               FROM SSN APPLICATION TO MAILING OF SSN CARD




       FO                                    NCC                                    SSN
       •Review Evidence                      •Electronic Screen                     •Assigned (New)
       •Personal Interview        0.6 day     of Data                    0.1 day    •Verified (Replacement)
       •Mail-in SS-5s                        •Applicant Identified
       •Transmit Data




       Mail                                  Mailing Process                        Printing Process
       •Mailing of SSN Cards                 •Preparation of Envelopes              •SS-5 Data Received
                                  1.7 days    for Mailing                0.5 days   •SSN Cards Printed
                                             •Vendor Pick-up and
                                              Delivery to Post Office


      Total Time=2.9 days




Based on our review, 33 of the 500 Forms SS-5 were discrepant by
3 or more days. Accordingly, 6.6 percent of the Forms SS-5
processed during the period under review did not meet SSA’s
performance measure of processing an original and replacement SSN
card within 5 business days of receiving all required
information. To meet this goal, SSA should have 3 percent or
less that did not meet its performance measure. Our estimate for
the data we received shows SSA did not meet the performance goal
of 97 percent for the week we reviewed.




                                                   10

 CO NCLUSIO NS A ND RECO M M END A TIO NS


The conditions noted in this report indicate that SSA does not
have a system that accurately measures its performance in issuing
new and replacement SSN cards. Accordingly, we recommend that
SSA take the following corrective actions to improve the process
of measuring the timely issuance of SSN cards:

1. SSA should establish a method that captures the processing
   time for both the printing and mailing of SSN cards.

  It is currently not possible to accurately measure the time
  required to print and mail SSN cards. SSA should measure both
  the printing and mailing processing time if it is going to be
  able to report on performance for this important customer
  service pledge. MES should be revised to capture the
  processing time from the application for a SSN card to the
  mailing of the card.

2. FO personnel should be trained to help ensure that the
   certification date on the Form SS-5 is accurately entered into
   MES.

  Many of the FO personnel contacted were unaware that the
  certification date on the SS-5 should be entered into MES.
  Training will ensure that the certification date on the Form
  SS-5 agrees with the information maintained by MES.

3. SSA should revise its interview and batch mode processes in
   MES to accurately capture the time of certification.

  MES should be revised to capture the time of day an SSN
  request is certified (or in the case of mail-in Forms SS-5
  should have been certified) and assigned/verified. Recording
  the time and the date, rather than just the date, will provide
  an accurate measure of how long it takes for these processes.

4. Application (FO and systems) processing time should be
   computed to reflect how long it actually takes to process an
   SSN request from certification date to assignment/verification
   date.

  MES should contain a date field with the capability of
  entering retroactive certification dates in both the interview
  and batch modes.

  Additionally, when the mail-in Form SS-5 is received by the
  FO, it should be date-stamped in and that date should be
  entered into MES to indicate the date and time of receipt.


                                11

AGENCY COMMENTS
SSA agreed with two of our four recommendations. The Agency
noted the need for improvement in the input of certification
dates for SSN applications. SSA also stated that it will restore
the capability to enter a retroactive certification date in MES
after implementation of the Year 2000 systems release in
September 1998.

The Agency partially agreed with our recommendation to establish
a method that captures the processing time for both the printing
and mailing of SSN cards. SSA indicated that there was a method
in place that adequately captures the processing time, but that
improvements in the system could be incorporated. SSA disagreed
with our recommendation to capture the time of certification,
stating that it was not necessary to expand its interview and
batch mode processes in order to capture partial day processing
time. The Agency believes that the entire process of SSN card
issuance and delivery to mail operation is performed in less than
one day. The Agency defines the issuance date; i.e, the end of
the process, as the date the printed SSN cards are delivered to
the mail operation and not when the cards are delivered to the
post office.

OIG RESPONSE
SSA does not have an accurate system to measure the time from
certification of an SSN application to the time printed cards are
put in envelopes, postage applied, and the envelopes are
delivered to the post office. SSA’s current system of
measurement understates the elapsed time for parts of the process
and does not measure other parts at all. We believe that the
implementation of the two recommendations the Agency agrees with
will improve the measurement of this important process. However,
we believe that the data will be inaccurate without the
implementation of our other two recommendations. Recording the
time and date at the beginning and the end of the entire process
will provide an accurate accounting of the actual time needed to
process SSN cards.




                               12

                    OTHER MATTERS


INTERVIEW A ND BA TCH M O D E PRO CESSING ARE USED EQUALLY
SSA policy is to give FO managers the flexibility to use either

the interview or batch mode to process SSN requests. We found

that the size of the FO did not have an effect on which process

was used. We found that both the interview and batch modes were

used equally in Level 1 and 2 FOs. The small branch offices

(Level 3) tended to use the interview mode more (13 out of the 20

FOs contacted) and the

2 small resident stations (Level 4) split evenly; 1 used the

interview mode and

1 used the batch mode.


FO staff we contacted gave multiple reasons for using the

interview mode rather than the batch mode. Sixty-three percent

of the staff indicated that propagation of data, where

information from the last SSN record was automatically

transferred to the appropriate MES input screens, was the reason

for the use of the interview mode. At the time of our review,

only the interview mode allowed for the propagation of data.

Fifty-eight percent of FO personnel stated that this mode

provided for more efficient use of personnel and resources.

Seventeen percent of FO personnel stated that the interview mode

was more user friendly.


FO staff we contacted were also asked why some used the batch

mode to process SSN card requests. Fifty-nine percent stated

that the batch mode was better suited to process mail-in Forms

SS-5. In other responses, they indicated that the batch mode

promoted the efficient use of personnel and resources to

accommodate large workloads (38 percent of the responses).





                                13

APPENDICES

SSA COMMENTS





      1

EARLY ALERT





     1

RESPONSE TO EARLY ALERT





           1

  MAJOR CONTRIBUTORS TO THIS REPORT


Office of the Inspector General

E. Scott Patterson, Director, Evaluations and Technical Services

Timothy F. Nee, Deputy Director

Stephen L. Liebman, Auditor-in-charge

Arthur Treglia, Senior Auditor

Thomas M. Bannworth, Program Analyst

Alan L. Lang, Auditor


This audit was planned and initiated by Jack Molnar, a former

Deputy Director in the Office of Audit.



For additional copies of this report, please contact the Office

of the Inspector General’s Public Affairs Specialist at (410)

966-9135. Refer to Common Identification Number A-02-97-93003.





                                  1

